HHS/OIG, Audit - "Audit of Texas Medicaid Inpatient Disproportionate Share Hospital Program for Hospital Fiscal Years 1996 through 1998," (A-06-01-00041)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Texas Medicaid Inpatient Disproportionate Share Hospital Program
for Hospital Fiscal Years 1996 through 1998," (A-06-01-00041)
February 24, 2003
Complete Text of Report is available in PDF format
(1.69 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that the Texas Medicaid state plan, with regard to calculating
disproportionate share hospital (DSH) payment limits, did not comply with the
intent of the Omnibus Budget Reconciliation Act (OBRA) of 1993. The state made
payments to hospitals on a progressive basis, but did not have controls in place
to assure that payments did not exceed the actual costs of providing services
to patients, which we believe was the intent of the OBRA of 1993. As a result,
DSH payments totaling approximately $511.4 million ($319.2 million federal share)
were paid to Texas hospitals in excess of hospital specific limits for hospital
fiscal years 1996 through 1998. Among other things, we recommended that Texas
work with the Centers for Medicare and Medicaid Services to address and resolve
the $511.4 million ($319.2 million federal share) of DSH payments in excess
of hospital specific limits.